                                               EMPLOYMENT AND
                                               TRAINING
                                               ADMINISTRATION
Office of Inspector General—Office of Audit





                                               RECOVERY ACT: ETA TOOK RECOMMENDED 

                                               CORRECTIVE ACTION TO ENSURE 

                                               CONGRESSIONAL INTENT COULD BE MET IN 

                                               THE YOUTHBUILD PROGRAM 





                                                                  Date Issued :     March 16, 2010
                                                                Report Number:    18-10-006-03-001
U.S. Department of Labor                                      March 2010
Office of Inspector General
Office of Audit                                               RECOVERY ACT: ETA TOOK RECOMMENDED
                                                              CORRECTIVE ACTION TO ENSURE
                                                              CONGRESSIONAL INTENT COULD BE MET IN
BRIEFLY…                                                      THE YOUTHBULD PROGRAM

Highlights of Report Number: 18-10-006-03-001, to the
Assistant Secretary for Employment and Training.              WHAT OIG FOUND
WHY READ THE REPORT                                           The OIG found that ETA selected YouthBuild Recovery
                                                              Act grantees on the basis of merit, and the grant
Congress enacted the American Recovery and                    agreements required adherence to Recovery Act
Reinvestment Act of 2009 (Recovery Act), to promote           Section 1512 reporting requirements. However, ETA
economic recovery, and assist those impacted by the           did not make grantees aware of the expanded
recession. The Recovery Act, provided $50 million to          population permitted to be served under the provisions
the Department of Labor for its YouthBuild program, to        of the Recovery Act raising the potential that the $50
provide educational and job training opportunities to at-     million provided by the Act may not be spent as
risk youth to better prepare them for the work place. On      permitted by Congress. According to ETA, it did not
June 12, 2009, the Employment and Training                    incorporate these provisions because it wanted to
Administration (ETA) awarded the Recovery Act grants.         award the grants expeditiously in keeping with OMB
                                                              guidance, which encouraged timely expenditure of
The U.S. DOL, Office of Inspector General (OIG)               Recovery Act funds. In September 2009, the OIG
conducted a performance audit of ETA’s Recovery Act           issued an Alert Memorandum to ETA recommending
YouthBuild grant solicitation and award process. The          Recovery Act grantees be informed of the expanded
Act expanded the population permitted to be served            population that could be served. In response to the
under the YouthBuild program to include individuals           Alert Memorandum, on October 7, 2009, the ETA Grant
who have dropped out of high school and re-enrolled in        Officer sent a memorandum to all YouthBuild grantees
alternative schools, if that re-enrollment is part of a       informing them of the expanded population that may be
sequential service strategy. Prior to the Recovery Act, if    served. In addition, on December 4, 2009, ETA issued
an individual dropped out of high school and                  Training and Employment Guidance Letter (TEGL) 11-
subsequently enrolled in an alternative school, that          09 clarifying the expanded population and defining high-
person would not be eligible to enroll in the YouthBuild      school dropout, alternative school, and sequential
program without first dropping out of school again.           service program.

WHY OIG CONDUCTED THE AUDIT                                   WHAT OIG RECOMMENDED

Our audit objectives were to answer the following             To better ensure Congressional intent could be met in
questions:                                                    the YouthBuild program we recommended that the
                                                              Assistant Secretary for Employment and Training notify
    1. 	 Did ETA select YouthBuild grantees using merit       Recovery Act grantees immediately of the expanded
         based criteria as required by Recovery Act           population that could be served under the Recovery
         guidelines?                                          Act. ETA promptly notified Recovery Act grantees by
    2. 	 Did YouthBuild Recovery Act grant agreements         memorandum of the expanded population and
         require adherence to Recovery Act reporting          subsequently issued a TEGL with further clarification,
         requirements?                                        thus resolving concerns raised by our recommendation.
    3. 	 Did YouthBuild Recovery Act grant agreements
         meet Congress’ intent to broaden the program         ETA’s Assistant Secretary generally agreed with the
         eligibility to students in alternative programs of   report stating it is reflective of earlier comments
         education?                                           provided to us.

READ THE FULL REPORT

To view the report, including the scope, methodology,
and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2010/
18-10-006-03-001.pdf
                                                   U. S. Department of Labor – Office of Inspector General



Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Objective 1 — Determine if ETA selected YouthBuild Recovery Act grantees using 

              merit-based criteria as required by Recovery Act guidelines. ......... 4


Objective 2 — Determine if YouthBuild Recovery Act grant agreements required 

              adherence to Recovery Act reporting requirements......................... 5


Objective 3 — Determine if YouthBuild Recovery Act grant agreements met 

              Congress’ intent to broaden the program eligibility to students in 

              alternative programs of education...................................................... 6


         Finding — The ETA YouthBuild Recovery Act grant agreements did not meet 

                    Congress’ intent to broaden the program eligibility to students in 

                    alternative programs of education. .................................................. 6


Recommendation .......................................................................................................... 7


Exhibits
         Exhibit 1 Schedule of Recovery Act YouthBuild Grantees.................................. 11

         Exhibit 2 Time-Line of YouthBuild Recovery Act and Regular Grant Activity...... 13


Appendices
         Appendix A Background ..................................................................................... 17

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 20

         Appendix C Acronyms and Abbreviations .......................................................... 23

         Appendix D Employment and Training Administration Response to Draft 

                    Report ............................................................................................. 25

         Appendix E Acknowledgements ......................................................................... 27





                                                                             Recovery Act – ETA YouthBuild Grants
                                                                                    Report No. [18-10-006-03-001]
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                            Recovery Act – ETA YouthBuild Grants
                                   Report No. [18-10-006-03-001]
                                     U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210


March 16, 2010

                        Assistant Inspector General’s Report



Ms. Jane Oates
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210


In September 2006, the YouthBuild Transfer Act authorized a transfer of the YouthBuild
program from the Department of Housing and Urban Development to the Department of
Labor (DOL). The Employment and Training Administration (ETA) administers the
program under a provision added to the Workforce Investment Act. The DOL assumed
grant administration for all DOL-awarded YouthBuild grants beginning in FY 2007. In
general, YouthBuild provides educational and job training opportunities within the
construction industry for at-risk youth who are between the ages of 16-24, are high
school dropouts, and are members of at least one of the eligibility groups (youth
offender, foster youth, low-income youth, youth who are individuals with disabilities,
children of an incarcerated parent, or migrant youth). However, an exception to the
above criteria allows 25 percent of all program participants to consist of youth who do
not meet either the education or income categories to qualify.

The American Recovery and Reinvestment Act of 2009 (Recovery Act) became law on
February 17, 2009, and provided $50 million to DOL for its YouthBuild program. On
June 12, 2009, ETA awarded $47 million in Recovery Act YouthBuild grants, while
withholding $3 million, as provided by law, for costs to administer the program. (See
Exhibit 1 for list of grantees). As a result of the Recovery Act, ETA funded 183
YouthBuild programs in FY 2009 (up from 107 funded in FY 2008). Recovery Act funds
will support approximately 3,100 additional participant slots. These awards were made
in June 2009 with a period of performance from July 2009 through June 2012.

The Recovery Act (1) requires grants be awarded using merit-based criteria, (2)
requires recipients of Recovery Act funds to submit quarterly reports regarding use of
those funds, and (3) broadens the school dropout provisions to serve an individual who
dropped out of high school and re-enrolled in an alternative school if that re-enrollment
was part of a sequential service strategy. Prior to the Recovery Act, if an individual
dropped out of high school but subsequently enrolled in an alternative school, he or she
would not be eligible to enroll in the YouthBuild program without first dropping out of
school again.


                                                               Recovery Act - ETA YouthBuild Grants
                                             1                       Report No. [18-10-006-03-001]
                                      U. S. Department of Labor – Office of Inspector General


Our audit objectives were to determine if (1) ETA selected YouthBuild Recovery Act
grantees using merit-based criteria as required by Recovery Act guidelines, (2)
YouthBuild Recovery Act grant agreements required adherence to Recovery Act
reporting requirements, and (3) YouthBuild Recovery Act grant agreements met
Congress’ intent to broaden the program eligibility to students in alternative programs of
education.

Our audit covered ETA’s practices, policies, and procedures for administering the
grant process, from solicitation through award to determine if the YouthBuild
Recovery Act grants were made on the basis of merit, if recipient reporting was
required of Recovery Act grantees, and if they met Congress’ intent regarding
Recovery Act funds for YouthBuild. We sampled YouthBuild Recovery Act grant
agreements to determine whether they included Recovery Act recipient reporting
requirements and expanded eligibility criteria for students in alternative programs of
education. Our audit did not cover the $3 million retained by ETA for technical and
administrative assistance.

RESULTS IN BRIEF

ETA awarded the YouthBuild grants on a merit basis. Our review of 30 YouthBuild
Recovery Act grantee applications disclosed ETA evaluated factors such as the need of
the community to be served by the YouthBuild program, managerial competencies and
past performance in providing YouthBuild-type services, and the ability of the applicant
to leverage resources of other organizations in the community.

The Recovery Act requires grantees to adhere to all current and subsequent recipient
reporting guidance. Accordingly, ETA included the recipient reporting requirements in
the grant agreements and has sponsored many technical assistance activities to inform
grantees of the Recovery Act reporting requirements and how to comply with them.

As we previously reported in an Alert Memorandum on September 29, 2009, grantees
were not made aware that the Recovery Act expanded the population that could be
served with these funds. The Act specified that the YouthBuild program may serve an
individual who has dropped out of high school and re-enrolled in an alternative school, if
that re-enrollment is part of a sequential service strategy. This language allows the
YouthBuild program to serve more youths because prior to the Recovery Act, the
program could not serve youths who had dropped out of high school and were currently
enrolled in an alternative school, without first dropping out of that school.

We recommended to the Assistant Secretary for Employment and Training on
September 29, 2009, that ETA notify Recovery Act grantees immediately of the
expanded population that could be served under the Recovery Act. On October 7, 2009,
as an initial response to this recommendation, ETA notified Recovery Act grantees
by e-mail of the population, and on December 4, 2009, ETA issued a Training and
Employment Guidance Letter with further clarification.



                                                          Recovery Act - ETA YouthBuild Grants
                                             2                  Report No. [18-10-006-03-001]
                                      U. S. Department of Labor – Office of Inspector General


In response to our draft report, ETA’s Assistant Secretary generally agreed with the
report stating it is reflective of earlier comments provided to us. ETA’s written response
to our draft report is provided in its entirety in Appendix D




                                                          Recovery Act - ETA YouthBuild Grants
                                             3                  Report No. [18-10-006-03-001]
                                       U. S. Department of Labor – Office of Inspector General



RESULTS AND FINDINGS

Objective 1 — Determine if ETA selected YouthBuild Recovery Act grantees using
              merit-based criteria as required by Recovery Act guidelines.

Grantees were properly selected. ETA selected 75 Recovery Act YouthBuild grantees
using merit-based criteria by assessing applications against the evaluation criteria in the
grant solicitation issued in October 2008. (See Exhibit 1 for a list of the grantees.) Grant
applications were evaluated by an independent panel of three, including one federal
employee, and scored based on the following weighted-average evaluation factors,
which were listed in the grant announcement:

    Statement of Need (5 points)
    Program Management and Organizational Capacity (15 points)
    Project Design, Service, Strategy, and Program Outcomes (35 points)
    Linkages to Key Partners and Leveraged Resources (25 points)
    Evidence of Past and Projected Success in YouthBuild or Other Relevant
      Programs (20 points)

On March 20, 2009, the White House, Office of the Press Secretary, issued a
memorandum to the heads of executive departments and agencies on the subject of
ensuring responsible spending of Recovery Act funds. Section 1 states:

    Ensuring Merit-Based Decision making for Grants and Other Forms of Federal
    Financial Assistance under the Recovery Act.

    (a) Executive departments and agencies shall develop transparent, merit-based
    selection criteria that will guide their available discretion in committing, obligating, or
    expending funds under the Recovery Act for grants and other forms of Federal
    financial assistance . . . To this end, merit-based selection criteria shall be designed
    to support particular projects, applications, or applicants for funding that have, to
    the greatest extent, a demonstrated or potential ability to (i) deliver programmatic
    results; (ii) achieve economic stimulus. . . . (iii) achieve long-term public benefits . . .

    (b) No considerations contained in oral or written communications from any person
    or entity concerning particular projects, applications, or applicants for funding shall
    supersede or supplant consideration by Executive departments and agencies of
    such projects, applications, or applicants for funding pursuant to applicable
    merit-based criteria.

The DOL ETA grants officer provided the following information further describing how
the Recovery Act YouthBuild grants were awarded. The grants officer told us that the
following method was discussed with the ETA solicitor, and the solicitor agreed with this
method of awarding Recovery Act and regular grants:


                                                            Recovery Act - ETA YouthBuild Grants
                                               4                  Report No. [18-10-006-03-001]
                                               U. S. Department of Labor – Office of Inspector General


From the list of 392 total eligible applicants, 183 of the most highly rated applicants
were selected for funding. All 183 applicants received YouthBuild grants totaling
approximately $114 million. To determine which of the 183 applicants were to receive a
portion of the Recovery Act funds1 versus YouthBuild appropriated funds, the ETA grant
officer met with ETA’s solicitor, and decided that the following method would be
acceptable:

      	 The Recovery Act grants were selected from the complete list of 183 YouthBuild
         grants, sorted alphabetically first by state, then by city.
      	 The first YouthBuild grant in each state was designated as a Recovery Act grant.
         This method of selection was to ensure that each state represented in the list of
         183 YouthBuild grant awards received a Recovery Act grant.
       With funds remaining, the third YouthBuild grant represented in each state was
         designated as a Recovery Act grant.
       After designating the first and third YouthBuild grant as Recovery Act grants,
         there was approximately $3.7 million remaining in those funds.
      	 The remaining $3.7 million in Recovery Act funds were awarded in the states
         receiving the highest percentage of YouthBuild awards based on the number of
         grantees in the state receiving funds from this solicitation. This was done by
         selecting the fifth YouthBuild grant represented in the states of California, Illinois,
         New York, and Ohio.
      	 After all the Recovery Act funds were awarded, the $66.5 million in regular
         YouthBuild program funds were awarded to the remaining grantees of the 183
         with high scores that were not selected to be Recovery Act-designated grantees.

OIG obtained the listing of the 183 YouthBuild grantees and repeated the process
explained above, and obtained the same outcome as ETA for the grantees who
received Recovery Act funds.



Objective 2 — Determine if YouthBuild Recovery Act grant agreements required
              adherence to Recovery Act reporting requirements.

Grant agreements contained the appropriate reporting requirements. ETA included the
recipient reporting requirements as required by OMB and the Recovery Act in the grant
agreements. Section 1512 of the Recovery Act, also known as the “Job Accountability
Act” requires that recipients, including grantees, of Recovery Act funds submit quarterly
reports regarding use of those funds, as well as the funds’ impact on the Recovery Act’s
goal of creating or preserving jobs. The recipients are also responsible for submitting
information on any subcontracts or subgrants awarded with Recovery funds. The
recipients are required to submit their reports using a centralized web portal at
FederalReporting.gov. The OMB guidance also requires federal agencies to notify


1
    Recovery Act funds awarded were $47,025,000 and Regular YouthBuild funds were $66,500,000.

                                                                       Recovery Act - ETA YouthBuild Grants
                                                        5                    Report No. [18-10-006-03-001]
                                      U. S. Department of Labor – Office of Inspector General


contractors and grantees in their agreements of recipient reporting responsibilities under
the Act including abiding by all subsequent OMB guidance detailing recipient reporting
requirements for Recovery Act funds

As required by the Recovery Act, ETA included in the grant agreements notification that
the grantees are required to adhere to Recovery Act Section 1512 recipient reporting
requirements both current and future. Since awarding the grants, ETA has sponsored
technical assistance activities to inform grantees of the Recovery Act reporting
requirements and how to comply with them. These activities included DOL and OMB
webinars; YouthBuild Community of Practice activities consisting of announcements,
webinars, discussion rooms, live links, and resource rooms and libraries; a Recovery
Act reporting workshop held in Washington, D.C.; and ongoing calls and support from
ETA program office staff.

We sampled 30 of the 75 Recovery Act grant agreements and determined that all 30
grant agreements contained the required Recovery Act language informing the grantees
of recipient reporting requirements. This sample provides us with a 95 percent
confidence level that all 75 Recovery Act grant agreements contain the required
language. Grant agreements for Recovery Act YouthBuild funds included a
supplementary attachment, which stated that grantees were responsible for reporting
requirements of the Recovery Act Section 1512 and all current and future OMB
reporting guidance.



Objective 3 — Determine if YouthBuild Recovery Act grant agreements met
              Congress’ intent to broaden the program eligibility to students in
              alternative programs of education.

Finding — The ETA YouthBuild Recovery Act grant agreements did not meet
           Congress’ intent to broaden the program eligibility to students in
           alternative programs of education.

When ETA announced the grant in October 2008 and awarded the Recovery Act grants
in June 2009, it did not include in the solicitation or grant agreements, an explanation of
the expanded population permitted to be served under the Recovery Act. The Recovery
Act specifically states that the program may enroll high school drop-outs who have re-
enrolled in an alternative school as long as that re-enrollment is part of a sequential
service strategy. We sampled 30 of the 75 Recovery Act grant agreements and
determined that none of the 30 grant agreements informed the grantee of the expanded
population. This sample provides us with a 95 percent confidence level that none of the
75 Recovery Act grant agreements contained the language. According to ETA, it did not
incorporate these provisions because it wanted to award the grants expeditiously in
keeping with OMB guidance, which encouraged timely expenditure of Recovery Act
funds.



                                                          Recovery Act - ETA YouthBuild Grants
                                             6                  Report No. [18-10-006-03-001]
                                      U. S. Department of Labor – Office of Inspector General


The eligibility language is found on page 2, of the Apprentice Standards of the grant,
Under Section III Qualifications for YouthBuild trainees — Title 29 CFR 29.5(b)(10). The
last bullet point states: to be eligible, a participant must be a high school drop out. The
section does not include the Recovery Act language regarding re-enrollment. When
discussing this with program officials, ETA YouthBuild agreed that grantees were not
made aware of the expanded population change.

In response to ETA’s lack of notification to Recovery Act grantees about the criteria, the
OIG issued Alert Memorandum Recovery Act: YouthBuild Grantees Have Not Been
Informed of the Expanded Population Eligible to be Served with Recovery Act Funds
Report Number: 18-09-005-03-001, September 29, 2009. In the Alert Memo the OIG
recommended that ETA notify Recovery Act grantees immediately of the population
allowed to be served.

In response to the OIG Alert Memorandum, on October 7, 2009, ETA sent a letter from
the YouthBuild Grants Officer, via e-mail, to all current YouthBuild grantees, including
those grantees that received funding under the Recovery Act, to alert them to the
expanded participant eligibility criteria. OIG subsequently reviewed ETA’s global e-mail
for adequate notification to the grantees. OIG advised ETA that the language used in
the notification from the Recovery Act legislation concerning “alternative school” and
“sequential service strategy” may not be clear to grantees and others in terms of the
population permitted to be served under the Recovery Act. OIG urged ETA officials to
consider clarifying that language to ensure the population permitted to be served by the
Act is well understood. ETA officials agreed and said they would try to clarify the
permitted-population definition in future guidance in the form of a Training and
Employment Guidance Letter (TEGL).

On December 4, 2009, ETA published (and sent copies to State workforce agencies,
State and Local Workforce Boards, and all YouthBuild grantees) ETA TEGL No. 11-09
titled Expanded Participant Eligibility for the YouthBuild Program. This TEGL clarified
the definition of school drop out and defined the terms alternative school and sequential
service program. OIG reviewed the TEGL and noted that ETA provided the needed
definition and clarification to allow grantees to understand how the new participant
criteria could affect current and potential program participants.

We recommended to the Assistant Secretary for Employment and Training (ETA) on
September 29, 2009, that ETA notify Recovery Act grantees immediately of the
expanded population that could be served under the Recovery Act. On October 7, 2009,
as an initial response to this recommendation, ETA notified Recovery Act grantees by
e-mail of the expanded population, and on December 4, 2009, ETA issued a Training
and Employment Guidance Letter with further clarification, thus resolving concerns
raised by our recommendation.




                                                          Recovery Act - ETA YouthBuild Grants
                                             7                  Report No. [18-10-006-03-001]
                                    U. S. Department of Labor – Office of Inspector General


We appreciate the cooperation and courtesies that YouthBuild and Office of Federal
Assistance personnel extended to the Office of Inspector General during this audit. OIG
personnel who made major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
  For Audit




                                                        Recovery Act - ETA YouthBuild Grants
                                           8                  Report No. [18-10-006-03-001]
            U. S. Department of Labor – Office of Inspector General




Exhibits





                                Recovery Act - ETA YouthBuild Grants
                   9                  Report No. [18-10-006-03-001]
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             Recovery Act - ETA YouthBuild Grants
               10                  Report No. [18-10-006-03-001]
                                  U. S. Department of Labor – Office of Inspector General


                                                                                Exhibit 1
Schedule of Recovery Act YouthBuild Grantees


                                                            Recovery Act Grant
                Organization                   State              Amount
Cook Inlet Tribal Council, Inc               AK            $628,805
Alethis House                                AL             699,600
Hale Empowerment and Revitalization Org      AL             550,587
Town of Guadalupe                            AZ             456,292
Metropolitan Area Advisory Committee         CA             699,600
Project
Fresno County Economic Opportunity           CA             699,600
Commission
Coalition for Responsible Community          CA             686,880
Development
Year One                                     CO             698,828
The Workplace                                CT             604,846
Community Renewal Team                       CT             463,620
ARCH Training Center                         DC             699,265
Sasha Bruce Youthwork                        DC             699,600
Worknet Pinellas,Inc                         FL             699,600
Urban League of Broward County               FL             699,600
Fulton Atlanta Community Action Authority    GA             613,672
City of Savannah Georgia                     GA             503,713
Department of Community Services             HI             699,600
Des Moise Area Community College             IA             494,436
Southeastern Community College               IA             572,351
Quad County Urban League                     IL             699,600
Emerson Park Development Corp                IL             699,600
United Methodist Children Home               IL             676,994
Housing Authority City of Evansville         IN             636,000
United Way of Wyandotte County, Inc          KS             699,600
Young Adult Development in Action            KY             699,600
Morehead State University                    KY             651,876
East Baton Rouge Parish Housing Authority    LA             673,565
St. James Parish Government                  LA             508,800
Old Colony Y                                 MA             699,600
Community Teamwork, Inc                      MA             699,600
Portland West, Inc                           ME             699,600
Neighborhoods, Inc of Battle Creek           MI             467,968
SER Metro Detroit Jobs for Progress          MI             699,600
Bi County Community Action Programs          MN             457,920
Tree Trust                                   MN             445,200
Job Point                                    MO             699,600

                                                       Recovery Act - ETA YouthBuild Grants
                                        11                   Report No. [18-10-006-03-001]
                                 U. S. Department of Labor – Office of Inspector General


MS Action for Community Education           MS            546,323
Blackfeet Tribal Business Council           MT            698,125
River City Community Develop Corp           NC            610,560
Housing Authority City of Wilmington        NC            508,800
Turtle Mountain Community College           ND            664,212
High Plains Community Develop Corp          NE            477,000
Goodwill Industries                         NE            523,319
Housing Authority City of Camden            NJ            699,600
NJ Community Develop Corp                   NJ            699,600
Tohatchi Area of Opportunity & Service      NM            699,600
Southern Nevada WIB                         NV            699,600
South Bronx Overall Economic Develop Corp   NY            622,110
United Way of Long Island                   NY            699,600
Board of Cooperative Education Service      NY            519,199
Ulser County
Akron Summit Community Action               OH            667,800
Cincinnati Hamilton County Community        OH            618,113
Action Agency
Cuyahoga Metropolitan Housing Authority     OH            513,014
Community Development Support Assoc         OK            581,940
Eagle Ridge Institute                       OK            699,600
Heart of Oregon Corps                       OR            699,600
The Job Council                             OR            699,600
Goodwill Industries Conemaugh Valley        PA            503,479
Montgomery County WIB                       PA            697,274
Providence Plan                             RI            691,968
Spartanburg Housing Authority               SC            698,597
Alliance for Business & Training            TN            661,504
Douglas Cherokee Economic Authority         TN            444,640
American Youth Works                        TX            699,573
Houston Works USA                           TX            699,600
Salt Lake Community College                 UT            624,824
People Incorporated of VA                   VA            476,244
Pathway VA                                  VA            699,600
Recycle North                               VT            496,080
Lummi Housing Authority                     WA            698,553
Community Youth Services                    WA            623,280
Community Action Rock & Walworth            WI            457,920
Counties
Indianhead Community Action Agency          WI            699,600
Randolph County Housing Authority           WV            603,061
Southern Appalachian Labor School           WV            716,670
                                            TOTAL        $47,025,000



                                                     Recovery Act - ETA YouthBuild Grants
                                       12                  Report No. [18-10-006-03-001]
                                     U. S. Department of Labor – Office of Inspector General


                                                                       Exhibit 2
                  Time-Line of YouthBuild Recovery Act and Regular Grant Activity

September 22, 2006 – YouthBuild Transfer Act (Public Law 109-281, 29) 

WIA section 173A (e)(1)(A)(iii) transferred YouthBuild program to DOL from HUD. 


October 6, 2008 – DOL ETA posted, in Federal Register, Notice of Availability of Funds 

and Solicitation for Grant Applications for YouthBuild Grants (SGA DFA PY 08-07). 


January 15, 2009 – Solicitation for Grant Applications for YouthBuild grants closed. 


February 17, 2009 – American Recovery and Reinvestment Act of 2009. 


February 18, 2009 – OMB guidance M09-10 is issued, which encourages prudent and 

timely expense of Recovery Act funds including general guidelines on how this may be 

achieved. 


March 20, 2009 – Memorandum from White House Office of the Press Secretary 

provided guidance on merit-based decision making for grants and contracts. 


March 23, 2009 – DOL OASAM memo to all agency heads, reiterating March 20, 2009, 

memo from White House on merit based decision making. 


April 15, 2009 – DOL Office of the Assistant Secretary for Administration and 

Management issued memo to all agency heads, establishing procedures to ensure 

White House directives are followed. 


May 27, 2009 – Training Employment Notice 46-08 is issued from Deputy Assistant 

Secretary announcing Department’s decision to combine Recovery Act and regular 

YouthBuild appropriations to award YouthBuild grants for FY 2009. 


June 12, 2009 – ETA Release Number 09-0649-NAT announced award of $114 million 

in grants including $47 million to 75 Recovery Act grantees and $66.5 million to108 

non-Recovery Act grantees. 


September 29, 2009 – DOL Office of Inspector General (OIG) issued Alert 

Memorandum: Recovery Act YouthBuild Grantees Have Not Been Informed of the 

Expanded Population Eligible to be Served with Recovery Act Funds Report Number: 

18-09-005-03-001. 


October 7, 2009 – ETA emails all YouthBuild grantees to alert them of the expanded 

participant eligibility criteria. 


December 4, 2009 – ETA published Training Employment Guidance Letter 11-09 titled 

Expanded Participant Eligibility for the YouthBuild Program further clarifying the 

expanded population to be served by the YouthBuild Program. 



                                                         Recovery Act - ETA YouthBuild Grants
                                           13                  Report No. [18-10-006-03-001]
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             Recovery Act - ETA YouthBuild Grants
               14                  Report No. [18-10-006-03-001]
               U. S. Department of Labor – Office of Inspector General




Appendices 





                                   Recovery Act - ETA YouthBuild Grants
                     15                  Report No. [18-10-006-03-001]
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             Recovery Act - ETA YouthBuild Grants
               16                  Report No. [18-10-006-03-001]
                                     U. S. Department of Labor – Office of Inspector General


                                                                               Appendix A
Background

In September 2006, the YouthBuild Transfer Act (PL 109 281) authorized a transfer of
the YouthBuild program from the Department of Housing and Urban Development to the
Department of Labor (DOL).The Employment and Training Administration (ETA)
administers the program under a provision added to the Workforce Investment Act,
section 173A, subtitle D. The DOL assumed grant administration for all DOL-awarded
YouthBuild grants beginning in FY 2007. In general, YouthBuild provides educational
and job training opportunities within the construction industry for at-risk youth who are
between the ages of 16-24, are high school dropouts, and are members of at least one
of the eligibility groups (youth offender, foster youth, low-income youth, youth who are
individuals with disabilities, children of an incarcerated parent, or migrant youth).
However, an exception to the above criteria allows 25 percent of all program
participants to consist of youth who do not meet either the education or income
categories to qualify.

The Recovery Act was signed into law by the President on February 17, 2009, to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. As of March 12, 2010, Congress provided $70.6 billion to DOL (See
Table 1 on next page). The Recovery Act, Division A Title VIII, dedicated $50 million for
the YouthBuild program to provide educational and job training opportunities to at-risk
youth to better prepare them for the work place. (See Exhibit 2 for a chronology of key
YouthBuild program milestones reviewed in this report.)




                                                         Recovery Act - ETA YouthBuild Grants
                                           17                  Report No. [18-10-006-03-001]
                                                   U. S. Department of Labor – Office of Inspector General


Table 1: Department of Labor Recovery Act Funding, as of March 12, 2010


                                                                                 Amount a
Program                                                                         (millions)           Percent

Unemployment Insurance                                                               $65,687            93.00

Training and Employment Services                                                        3,950             5.59

State Unemployment Insurance and Employment
Service Operations                                                                         400            0.57

Community Service Employment for Older Americans                                           120            0.17

National Emergency Grants for Health Insurance
Coverage                                                                                   150            0.21

Job Corps                                                                                  250            0.35

Departmental Management                                                                      80           0.11 


Total                                                                                 $70,637b         100.00 

a
  – The amounts other than “Unemployment Insurance” were obtained from the Recovery Act dated February 17,
2009. The “Unemployment Insurance” amount was provided by the Office of the Assistant Secretary for
Administration and Management, DOL, and includes amounts made available for Federal and State Extended
Benefits, Extension of Emergency Unemployment Compensation, 2008, and Federal Additional Unemployment
Compensation programs.
b
  – The total amount does not include $6 million provided to the OIG to provide oversight over the Department’s
Recovery Act activities.

The Recovery Act (1) requires grants be awarded using merit-based criteria, (2)
requires recipients of Recovery Act funds to submit quarterly reports regarding use of
those funds, and (3) broadens the school dropout provisions to serve an individual who
dropped out of high school and re-enrolled in an alternative school if that re-enrollment
was part of a sequential service strategy.2 Prior to the Recovery Act, if an individual
dropped out of high school but subsequently enrolled in an alternative school, he or she
would generally not be eligible to enroll in the program without first dropping out of
school again.




2
 The Consolidated Appropriations Act, 2010, PL No. 111-117, 123 Stat. 3034 (December 16, 2009), provided that for
program year 2010 and each program year thereafter, the YouthBuild program may serve an individual who has
dropped out of high school and re-enrolled in an alternative school, if that re-enrollment is part of a sequential service
strategy.

                                                                             Recovery Act - ETA YouthBuild Grants
                                                           18                      Report No. [18-10-006-03-001]
                                              U. S. Department of Labor – Office of Inspector General


On October 6, 2008, ETA announced the availability of approximately $47 million in
grant funds for YouthBuild grants. The closing date for receipt of applications under this
announcement was January 15, 20093. Subsequent to passage of the Recovery Act,
ETA issued Training and Employment Notice 46-08 on May 27, 2009, informing
YouthBuild grant applicants and ETA’s YouthBuild grant program community that the
Department would combine Recovery Act funding for this program with the regular FY
2009 YouthBuild appropriations, and make awards to successful applicants from the
current YouthBuild competition. ETA did this to expedite awarding of grants and to meet
Congressional intent to expand the number of grantees. All grants were awarded on
June 12, 2009, with a period of performance from July 2009 through June 2012. (See
Exhibit 2 for a chronology of the YouthBuild grant activity.)

On June 12, 2009, Secretary of Labor issued press release number 09-0649-NAT,
announcing the award of approximately $114 million to 183 community groups to
provide education and training to young people across the United States. The award
included approximately $67 million in FY 2009 regular YouthBuild funding to 108
grantees, and approximately $47 million in Recovery Act YouthBuild grants to 75
grantees (See Exhibit 1). As a result of the Recovery Act, ETA funded 183 YouthBuild
programs in FY 2009 (up from 107 funded in FY 2008). Recovery Act funds will support
approximately 3,100 additional participant slots.

Three million of the $50 million in Recovery Act YouthBuild appropriations was withheld
for program costs, as allowed by law. Of the $50 million provided by The Recovery Act,
5 percent of the funds, or $2.5 million, was reserved for technical assistance (authorized
by the YouthBuild Transfer Act). Once funds for technical assistance were subtracted
from the Recovery Act amount, 1 percent, or $475,000, of the remaining balance went
to program management including evaluation and administration of the program,
authorized by the Recovery Act.




5
The grants awarded were to be funded with FY 2009 appropriations.

                                                                    Recovery Act - ETA YouthBuild Grants
                                                     19                   Report No. [18-10-006-03-001]
                                      U. S. Department of Labor – Office of Inspector General


                                                                                Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

The objectives of our audit were to determine if:

     1. ETA selected YouthBuild Recovery Act grantees using merit-based criteria as
        required by Recovery Act guidelines.

     2. YouthBuild Recovery Act grant agreements required adherence to Recovery
        Act reporting requirements.

     3. YouthBuild Recovery Act grant agreements met Congress’ intent to broaden
        the program eligibility to students in alternative programs of education.

Scope

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We conducted our fieldwork from September 2, 2009 to February 22, 2010, at ETA’s
headquarters in Washington, D.C. We audited ETA’s YouthBuild grant process related
to the Recovery Act of 2009, including selection of Recovery Act grantees; grant
agreements’ adherence to Recovery Act reporting requirements; and guidance given to
applicants during grant solicitation and post-solicitation on expanded population
permitted to be served. Our audit does not review the $3 million retained by ETA for
technical and administrative assistance to carry out the Recovery Act YouthBuild grant
program.

The statistical sampling universe for our model was defined as the 75 YouthBuild
Recovery Act grantees awarded on June 12, 2009. Our findings from the sample of the
30 grants, allows us to project that we are 95 percent confident the universe of 75
grants contained the attributes that we found.

Methodology

To accomplish our audit objectives, we obtained an understanding of the Recovery
Act Division A Title VIII (5), which sets forth ETA’s activities for YouthBuild. We also
conducted interviews with ETA officials from the Division of Youth Services,
YouthBuild, Division of Federal Assistance, and the Grant Officer to gain an
understanding of the method used to award YouthBuild Recovery Act grants and the


                                                          Recovery Act - ETA YouthBuild Grants
                                            20                  Report No. [18-10-006-03-001]
                                       U. S. Department of Labor – Office of Inspector General


status of the Recovery Act efforts. We reviewed the Solicitation for grant applications
for YouthBuild Grants, and grant agreements. We also reviewed the Recovery.Gov
and Community of Practice websites for Recovery Act-related material.

We sampled Recovery Act grant agreements and reviewed the selected agreements for
contract language addressing the required reporting objectives necessary to be
compliant with OMB guidance on reporting Recovery Act funds, and expanded eligibility
criteria for students in alternative programs of education. We statistically sampled 30 of
the universe of 75 Recovery Act grants, with a 95 percent confidence level. Based on
the findings from the sample, we project that we are 95 percent confident that the
universe of 75 grants contains the attributes we found. From the universe of 75
YouthBuild Recovery Act grantees, the random sample of 30 grants provided a
sampling fraction of 40 percent. The sample test results were projected to the universe
of YouthBuild Recovery Act grantees. An explanation of the audit test results and
relevance of the tests to the audit’s objectives is provided in the body of the audit report.

We interviewed program officials and the Grants officer and obtained and reviewed the
original solicitation for grant announcement SGA/DFA PY 08-07, and grants to
determine if YouthBuild Recovery Act grants met Congress’ intent to broaden the
program eligibility to students in alternative programs of education. In addition, we
reviewed an ETA e-mail that was sent out to all YouthBuild grantees in response to an
OIG Alert Memorandum Recovery Act: YouthBuild Grantees Have Not Been Informed
of the Expanded Population Eligible to be Served with Recovery Act Funds Report
Number: 18-09-005-03-00 to determine if it was adequate to notify the grantees of the
expanded population permitted to be served by the Act. Finally, the OIG reviewed ETA
TEGL No. 11-09, issued December 4, 2009, titled Expanded Participant Eligibility for the
YouthBuild Program issued to further clarify the definition of school drop out and the
terms “alternative school” and “sequential service program.”

A performance audit includes gaining an understanding of internal controls
considered significant to the audit objectives, testing controls, and testing
compliance with significant laws, regulations, and other requirements. Our work on
internal controls included obtaining and reviewing policies and procedures and
interviewing key personnel. We gained an understanding of ETA’s processes relative
to our audit objectives and documented a description of the controls. Our testing of
internal controls focused only on the controls related to our objectives of assessing
compliance with significant laws, regulations, and policies and procedures.
Specifically, we sampled and reviewed grant applications of denied and accepted
applicants to determine if the criteria specified in the Solicitation for Grant
Applications (SGA) for basic acceptance of a grant application and for ranking grant
applications was used to evaluate those applications. We examined the pool of grant
applications received from the Solicitation announced October 6, 2008. We also
examined the Grants announced June 12, 2009. Furthermore, we obtained a list of
the 183 YouthBuild grantees and repeated the process used by ETA to award those
grants. We did not intend to form an opinion on the adequacy of internal controls
overall, and we do not render such an opinion.


                                                           Recovery Act - ETA YouthBuild Grants
                                             21                  Report No. [18-10-006-03-001]
                                     U. S. Department of Labor – Office of Inspector General



Criteria

We used the following criteria to accomplish our audit:

      America Recovery and Reinvestment Act of 2009, dated February 17, 2009
      The Consolidated Appropriations Act, 2010, PL No. 111-117, dated
       December 16, 2009
      YouthBuild Transfer Act Public Law 109 281, dated September 22, 2006
      White House, Office of the Press Secretary, Memorandum for the Heads of
       Executive Departments and Agencies, dated March 20, 2009
      OMB Guidance
            M-09-10 Initial Implementing Guidance for the American Recovery and
               Reinvestment Act of 2009, dated February 18,2009;
            M-09-15 Updated Implementing Guidance for the American Recovery and
               Reinvestment Act of 2009, dated April 3, 2009; and
           	 M-09-21 Implementing Guidance for the Reports on Use of Funds
               Pursuant to the American Recovery and Reinvestment Act of 2009, dated
               June 22, 2009.
      Training Employment Notice 46-08, dated May 27, 2009
      Training Employment Guidance Letter No. 11-09 titled Expanded Participant
       Eligibility for the YouthBuild Program, dated December 4, 2009
      Notice of Solicitation for Grant Applications SGA/DFA PY08-07, dated October 6,
       2008




                                                          Recovery Act - ETA YouthBuild Grants
                                           22                   Report No. [18-10-006-03-001]
                                U. S. Department of Labor – Office of Inspector General


                                                                          Appendix C
Acronyms and Abbreviations

DOL             Department of Labor

ETA             Employment and Training Administration

OIG             Office of Inspector General

RECOVERY ACT    American Recovery and Reinvestment Act of 2009

SGA             Notice of Solicitation for Grant Applications SGA/DFA PY08-07,
                dated October 6, 2008

TEGL            Training and Employment Guidance Letter




                                                    Recovery Act - ETA YouthBuild Grants
                                      23                  Report No. [18-10-006-03-001]
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             Recovery Act - ETA YouthBuild Grants
               24                  Report No. [18-10-006-03-001]
                                U. S. Department of Labor – Office of Inspector General


                                                                        Appendix D
Employment and Training Administration Response to Draft Report




                                                    Recovery Act - ETA YouthBuild Grants
                                      25                  Report No. [18-10-006-03-001]
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             Recovery Act - ETA YouthBuild Grants
               26                  Report No. [18-10-006-03-001]
                                      U. S. Department of Labor – Office of Inspector General


                                                                              Appendix E
Acknowledgements

Key contributors to this report were Michael E. Gilbert (Audit Director), Michael Elliott,
and Natalie Philippoff.




                                                          Recovery Act - ETA YouthBuild Grants
                                             27                 Report No. [18-10-006-03-001]
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                             Recovery Act - ETA YouthBuild Grants
               28                  Report No. [18-10-006-03-001]
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	 http://www.oig.dol.gov/       hotlineform.htm
Email:	 hotline@         oig.dol.gov

Telephone:	    1-800-347-3756
               202-693-6999

Fax:           202-693-7020

Address:       Office of Inspector General
               U.S. Department of Labor
               200 Constitution Avenue, N.W.
 Room                 S-5506
               Washington, D.C. 20210
